No..
IN THE

SUPREME COURT OF THE UNITED STATES
David BRENNAN
Petitioner
vs.

WHITE COUNTY, ARKANSAS
Respondent
AFFIDAVIT OF SERVICE
I, David Brennan, declare under penalty of perjury that the following is true
and correct.
The Petition for Writ of Certiorari in Brennan v. White County, Arkansas, has
been served upon counsel for White County, Arkansas, this 5th day of September,
2019, by sending three copies of the Petition via First Class U.S. Mail, postage
prepaid, to the following:
Colin Jorgensen
Association of Arkansas Counties
1415 West Third Street
Little Rock, AR 72201
Additionally, said counsel has been electronically served at the following
emailaddress:
cjorgensen@arcounties.org
Because this case challenges the constitutionality of a state statute, the
Petition has also been served on the Arkansas Attorney General by sending three
copies of the Petition via First Class U.S. Mail, postage prepaid, to the following:

1

'Ll

Hon. Leslie Rutledge
Arkansas Attorney General
323 Center Street, Suite 200
Little Rock, AR 72201
Attorney General Rutledge has also been served electronically at the
following email address:
oag@ArkansasAG. gov

David Brennan
1200 Curd Drive, lot 8
Searcy, AR 72143
MagicGritsLegal@gmail.com
VERIFICATION
STATE OF ARKANSAS )
)ss.
COUNTY OF WHITE
)
On this day personally appeared before me, the undersigned, a Notary Public
within and for the County and State aforesaid, duly commissioned, qualified and
acting, David Brennan, to me well known or satisfactorily proven, and
acknowledged that he had executed the foregoing Affidavit in my presence.
WITNESS my hand and seal as such Notary Public this 5th day of
September, 2019.

<&>0 1%0p
Notary Public
k "X : £*p. M®4:-

2

